No. 20-1199

In the

Supreme Court of the United States
♦
STUDENTS FOR FAIR ADMISSIONS, INC.
Petitioner,
v.
PRESIDENT & FELLOWS OF HARVARD COLLEGE,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus Curiae
Mountain States Legal Foundation in Support of Petitioner contains 5818 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 31, 2021.
/s/ William E. Trachman
William E. Trachman
Counsel of Record
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
wtrachman@mslegal.org
Attorney for Amicus Curiae

